AUDIT OF SUPERFUND ACTIVITIES IN
 THE ENVIRONMENT AND NATURAL
    RESOURCES DIVISION FOR
 FISCAL YEARS 2009 AND 2010

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 11-44
            September 2011
        AUDIT OF SUPERFUND ACTIVITIES IN THE
    ENVIRONMENT AND NATURAL RESOURCES DIVISION
           FOR FISCAL YEARS 2009 AND 2010

                            EXECUTIVE SUMMARY

        The Comprehensive Environmental Response, Compensation and
Liability Act of 1980 (known as CERCLA or Superfund), which was expanded
by the Superfund Amendments and Reauthorization Act of 1986, established
the Superfund program to clean up the nation’s worst hazardous waste
sites. 1 CERCLA seeks to ensure that individuals or organizations responsible
for the improper disposal of hazardous waste bear the costs for their actions.
It also established the Hazardous Substance Superfund Trust Fund (Trust
Fund) to finance clean up sites when a liable party cannot be found or the
third party is incapable of paying clean up costs. The Trust Fund also pays
the Environmental Protection Agency (EPA) for enforcement, management
activities, and research and development.

      Executive Order 12580, issued January 23, 1987, gives the Attorney
General responsibility for all Superfund litigation. Within the Department of
Justice (DOJ), the Environment and Natural Resources Division (ENRD)
enforces CERCLA’s civil and criminal pollution-control laws. In fiscal year
(FY) 1987, EPA entered into interagency agreements with the ENRD and
began reimbursing the ENRD for its litigation costs. In recent years, EPA
authorized reimbursements to the ENRD of $25.6 million for FY 2009 and
$25.6 million for FY 2010 in accordance with EPA Interagency Agreements
DW-15-92194601-7 (FY 2009) and DW-15-92194601-8 (FY 2010).




      1
          42 U.S.C. Chapter 103 (2010)
       The EPA and the ENRD Statement of Work required the ENRD to
maintain a system that documented its litigation costs. To this end, the
ENRD used a cost distribution system developed and maintained by a private
contractor. The system was designed to process financial data from the
ENRD Expenditure and Allotment (E&A) Reports into: (1) Superfund direct
costs by specific case broken down between direct labor costs and all other
direct costs; (2) non-Superfund direct costs; and (3) allocable indirect
costs. 2

      As required by CERCLA, the DOJ Office of the Inspector General
conducted this audit to determine if the cost allocation process used by the
ENRD and its contractor provided an equitable distribution of total labor
costs, other direct costs, and indirect costs to Superfund cases from
FYs 2009 and 2010. We compared costs reported in the contractor’s
accounting schedules and summaries for these 2 years to costs recorded in
DOJ accounting records to review the cost distribution system used by the
ENRD to allocate incurred costs to Superfund and non-Superfund cases.

      We believe that the ENRD provided an equitable distribution of total
labor costs, other direct costs, and indirect costs to Superfund cases from
FYs 2009 and 2010. However, we make two recommendations: (1) develop
processes to maintain documentation in order to provide complete support
for the Superfund allocation processes and aid in the reconciliation of ENRD
and contractor data, and (2) remedy the $27,966 of Fees – Expert Witness
charges to be paid by the U.S. Attorney’s Office.




       2
          The E&A Report is a summary of the total costs incurred by the ENRD during the
fiscal year. The report includes all costs (both liquidated and unliquidated) by subobject
class and a final indirect cost rate calculation for the fiscal year. Other direct costs charged
to individual cases include special masters, expert witnesses, interest penalties, travel, filing
fees, transcription (court and deposition), litigation support, research services, graphics,
and non-capital equipment. Indirect costs are the total amounts paid in the E&A Reports
less direct charges and are allocated based on the direct Superfund salary costs on each
case.

                                               ii
                                TABLE OF CONTENTS
                                                                                               Page

INTRODUCTION ................................................................................ 1
    OIG Audit Approach ......................................................................... 5
FINDINGS AND RECOMMENDATIONS ................................................ 6
    Reconciliation of Contractor Accounting Schedules and Summaries to
    E&A Reports ................................................................................... 7
    Superfund Case Reconciliation .......................................................... 8
    Superfund Cost Distribution .............................................................. 9
    Conclusion .................................................................................... 15
    Recommendations ......................................................................... 15
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 16
APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY .................. 17
APPENDIX II - FY 2010 CASES IN SAMPLE REVIEW ......................... 19
APPENDIX III - FY 2009 ACCOUNTING SCHEDULES
  AND SUMMARIES ........................................................................ 20
APPENDIX IV - FY 2010 ACCOUNTING SCHEDULES
  AND SUMMARIES ........................................................................ 29
APPENDIX V - SCHEDULE OF DOLLAR-RELATED FINDING ................ 38
APPENDIX VI – ENVIRONMENTAL AND NATURAL RESOURCES
  DIVISION’S RESPONSE TO THE DRAFT REPORT .......................... 39
APPENDIX VII - OFFICE OF THE INSPECTOR GENERAL ANALYSIS
  AND SUMMARY OF ACTIONS NECESSARY TO
  CLOSE THE REPORT..................................................................... 41
                                 INTRODUCTION

      In 1980, the Congress passed the Comprehensive Environmental
Response, Compensation, and Liability Act (CERCLA or Superfund) to clean
up hazardous waste sites throughout the United States. 1 The law addressed
concerns about the need to clean up abandoned hazardous waste sites and
the future release of hazardous substances into the environment. When
CERCLA was enacted, the Environmental Protection Agency (EPA) was
assigned responsibility for preparing a National Priorities List to identify sites
that presented the greatest risk to human health and the environment.
Waste sites listed on the National Priorities List were generally considered
the most contaminated in the nation, and EPA funds could be used to clean
up those sites. The clean up of these sites was to be financed by the
potentially responsible parties – generally the current or previous owners or
operators of the site. In cases where the potentially responsible party could
not be found or were incapable of paying clean up costs, CERCLA established
the Hazardous Substance Superfund Trust Fund (Trust Fund) to finance
clean up efforts. The Trust Fund also pays for EPA’s enforcement,
management, and research and development activities.

      Because CERCLA was set to expire in FY 1985, Congress passed the
Superfund Amendments and Reauthorization Act (SARA) in 1986. 2 SARA
stressed the importance of using permanent remedies and innovative
treatment technologies in the clean up of hazardous waste sites, provided
EPA with new enforcement authorities and settlement tools, and increased
the authorized amount of potentially available appropriations for the Trust
Fund.

       Executive Order 12580, issued January 23, 1987, gives the Attorney
General responsibility for all Superfund litigation. Within the Department of
Justice (DOJ), the Environment and Natural Resources Division (ENRD)
administers cases against those who violate CERCLA’s civil and criminal
pollution-control laws. Superfund litigation and support are assigned to the
following ENRD sections: Appellate, Environmental Crimes, Environmental
Defense, Environmental Enforcement, Land Acquisition, Natural Resources,
and Law and Policy.




      1
          42 U.S.C. Chapter 103 (2010)
      2
          SARA is incorporated into 42 U.S.C. Chapter 103 (2010)



                                            1
      Beginning in FY 1987, the EPA entered into interagency agreements
with the DOJ to reimburse the ENRD for its litigation costs related to its
CERCLA activities. As shown in Exhibit 1, budgeted reimbursement for
Superfund litigation represented, on average, 30 percent of the ENRD’s total
budget during the 24-year period from FYs 1987 through 2010.

Exhibit 1: Comparison of the ENRD’s Appropriations and Budgeted
           Superfund Reimbursements (FYs 1987 through 2010)

                                        Budgeted
                   ENRD                 Superfund                Total ENRD
    FY         Appropriations        Reimbursements                Budget
 1987              $23,195,000            $11,550,000               $34,745,000
 1988               26,194,000             18,473,000                44,667,000
 1989               26,456,000             22,100,000                48,556,000
 1990               34,713,000             28,754,000                63,467,000
 1991               43,683,000             32,799,000                76,482,000
 1992               49,177,000             35,607,000                84,784,000
 1993               51,445,000             34,534,000                85,979,000
 1994               53,364,000             33,809,000                87,173,000
 1995               58,170,000             33,879,860                92,049,860
 1996               58,032,000             32,245,000                90,277,000
 1997               58,049,000             30,000,000                88,049,000
 1998               61,158,000             29,963,500                91,121,500
 1999               62,652,000             30,500,000                93,152,000
 2000               65,209,000             30,000,000                95,209,000
 2001               68,703,000             28,500,000                97,203,000
 2002               71,300,000             28,150,000                99,450,000
 2003               70,814,000             28,150,000                98,964,000
 2004               76,556,000             28,150,000               104,706,000
 2005               90,856,000             27,150,000               118,006,000
 2006               93,974,000             26,319,100               120,293,100
 2007               95,093,000             26,056,000               121,149,000
 2008               99,365,000             25,594,000               124,959,000
 2009              109,093,000             25,600,000               134,693,000
 2010              109,785,000             25,600,000               135,385,000
 Total         $1,557,036,000           $673,483,460            $2,230,519,460
 Source: ENRD Budget History Report for FYs 1987 through 2010




                                        2
       The EPA and the ENRD Statement of Work required the ENRD to
maintain a system that documented its Superfund litigation costs.
Accordingly, the ENRD implemented a management information system
designed by FTI Rubino & McGeehin Consulting Group, Incorporated
(contractor). The system was designed to process financial data from the
ENRD’s Expenditure and Allotment (E&A) Reports into: (1) Superfund direct
costs by specific case, allocated between direct labor costs and all other
direct costs; (2) non-Superfund direct costs; and (3) allocable indirect
costs. 3

      The EPA authorized reimbursements to the ENRD of $25.6 million for
FY 2009 and $25.6 million for FY 2010 in accordance with EPA Interagency
Agreements DW-15-92194601-7 (FY 2009) and DW-15-92194601-
8 (FY 2010).

       Excise taxes imposed on the petroleum and chemical industries as well
as an environmental income tax on corporations maintained the Trust Fund
through December 31, 1995, when the taxing authority for Superfund
expired. Since that time, Congress has not enacted legislation to
reauthorize the tax. Currently, the funding for Superfund is comprised of
appropriations from EPA’s general fund, interest, fines, penalties, and
recoveries generated through litigation. Consequently, the significance of
the ENRD’s Superfund litigation can be seen in the commitments and
recoveries the EPA has obtained, with the EPA receiving over $8 billion in
commitments to clean up hazardous waste sites and recovering over
$6 billion from potentially responsible parties during FYs 1987 - 2010, as
shown in Exhibit 2.




       3
          The E&A Report is a summary of the total costs incurred by the ENRD during the
fiscal year. The report includes all costs (both liquidated and unliquidated) by subobject
class and a final indirect cost rate calculation for the fiscal year. Other direct costs charged
to individual cases include special masters, expert witnesses, interest penalties, travel, filing
fees, transcription (court and deposition), litigation support, research services, graphics,
and non-capital equipment. Indirect costs are the total amounts paid in the E&A Reports
less direct charges and are allocated based on the direct Superfund salary costs on each
case.



                                               3
            Exhibit 2: Estimated Commitments and Recoveries
                           (FYs 1987 through 2010) 4

            FY              Commitment                        Recovery
             1987              $           0                     $ 12,000,000
             1988                 10,000,000                       32,000,000
             1989                106,000,000                       73,000,000
             1990                 10,000,000                       56,000,000
             1991                186,000,000                      182,000,000
             1992                225,000,000                      211,000,000
             1993                187,000,000                      326,000,000
             1994                148,000,000                      490,000,000
             1995                117,000,000                      204,000,000
             1996                101,000,000                      338,000,000
             1997                280,000,000                      334,000,000
             1998                403,000,000                      308,000,000
             1999                386,000,000                      332,000,000
             2000                494,000,000                      153,000,000
             2001              1,418,000,000                      566,000,000
             2002                565,000,000                      277,000,000
             2003                474,000,000                      185,000,000
             2004                289,000,000                      202,000,000
             2005                647,000,000                      270,000,000
             2006                230,000,000                      146,000,000
             2007                271,000,000                      211,000,000
             2008                542,000,000                      429,000,000
             2009                272,000,000                      179,000,000
             2010                753,000,000                      726,000,000
       Total                   $8,114,000,000                   $6,242,000,000
       Source: ENRD Commitment and Recovery Report for FYs 1987 through 2010




       4
         Commitments are estimated funds from potentially responsible parties for the
clean up of hazardous waste sites. Recoveries are actual funds received by EPA that include
Superfund cost recovery, oversight costs, and interest.



                                            4
OIG Audit Approach

       The objective of the audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor costs, other direct costs, and indirect costs to
Superfund cases during FYs 2009 and 2010. To accomplish our objective,
we assessed whether: (1) the ENRD identified Superfund cases based on
appropriate criteria, (2) costs distributed to cases were limited to costs
reported in the E&A Reports, and (3) adequate internal controls existed over
the recording of direct labor time to cases and the recording of other direct
charges to accounting records and Superfund cases.

      Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.




                                      5
                FINDINGS AND RECOMMENDATIONS

              SUPERFUND COSTS FOR FYS 2009 AND 2010

       We found that the ENRD provided an equitable distribution of
       total labor costs, other direct costs, and indirect costs to
       Superfund cases during FYs 2009 and 2010. However, we make
       two recommendations: (1) develop processes to maintain
       documentation in order to provide complete support for the
       Superfund allocation processes and aid in the reconciliation of
       ENRD and contractor data and (2) remedy the $27,966 of Fees –
       Expert Witness charges to be paid by the U.S. Attorney’s Office.

      We designed the audit to compare costs reported in the contractor’s
accounting schedules and summaries for FYs 2009 and 2010 (see
Appendices III and IV) to the information recorded in DOJ’s accounting
records, and to review the cost distribution system used by the ENRD to
allocate incurred costs to Superfund and non-Superfund cases. To
accomplish this, we performed the following tests:

   •   We compared Superfund total costs recorded as paid in the E&A
       Reports to the amounts reported as Total Amounts Paid in the year-
       end accounting schedules and summaries, and we traced the costs to
       Superfund cases.

   •   We reviewed the ENRD’s methodology for categorizing Superfund
       cases by comparing a select number of Superfund cases to the ENRD’s
       Superfund case designation criteria. 5

   •   We reviewed the contractor’s methodology for distributing direct labor
       and indirect costs to Superfund cases, and we compared other direct
       costs to source documents to validate their allocability to Superfund
       cases.

      We performed these steps to ensure that costs distributed to
Superfund and non-Superfund cases were based on total costs for FYs 2009
and 2010; that the distribution methodology used and accepted in prior
years remained viable; and that selected costs were supported by evidence
that documented their allocability to Superfund and non-Superfund cases.
We used the test results to determine if the ENRD provided an equitable
       5
        FY 2007 ENRD memorandum entitled Environment and Natural Resources Division
Determination of Superfund Cases provides the methodology for designating Superfund
cases.



                                         6
distribution of total labor, other direct costs, and indirect costs to Superfund
cases during FYs 2009 and 2010.

      We noted that the ENRD did not maintain copies of all data they
provided to the contractor including: (1) initial financial data supplied to the
contractor; (2) reconciliations performed between the ENRD and contractor;
and (3) correspondence between the ENRD and the contractor. The lack of
availability of this information required additional testing and validation. We
discussed this issue with the ENRD and recommend that it develop processes
to maintain this documentation in order to provide complete support for the
Superfund allocation processes and aid in the reconciliation of ENRD and
contractor data.

Reconciliation of Contractor Accounting Schedules and Summaries to
E&A Reports

      To ensure that the distribution of costs to Superfund and non-
Superfund cases was limited to total costs incurred for each fiscal year, we
reconciled the amounts reported in the E&A Reports to those in the
contractor’s Schedule 6, Reconciliation of Total ENRD Expenses. According
to the E&A Reports, total ENRD expenses were over $123 million in FY 2009
and over $131 million in FY 2010, as shown in Exhibit 3.

                Exhibit 3: ENRD Expenses by Fiscal Year


               Description          2009         2010
              Salaries            $73,298,886  $77,157,958
              Benefits             18,483,693   20,648,390
              Travel                3,291,093    3,261,109
              Freight                 320,174      271,656
              Rent                 12,041,110   13,547,385
              Printing                110,299       79,831
              Services             13,884,737   15,420,648
              Supplies                663,538      712,073
              Equipment             1,354,647       67,983
              Totals            $123,448,177 $131,167,033
              Source: ENRD E&A Reports for FYs 2009 and 2010




                                        7
      We then reconciled the E&A Report amounts to the distributions in the
contractor’s Schedule 5, Superfund Costs by Object Classification, and
Schedule 2, Superfund Obligation and Payment Activity by Fiscal Year of
Obligation. We found that Schedules 1 through 6 reconciled to the E&A
Reports.

       After reconciling the contractor’s accounting schedules and summaries
to the E&A Reports, we reviewed the distribution of costs to Superfund
cases. Our starting point for reviewing the distribution system was to
identify and reconcile the ENRD cases as Superfund or non-Superfund. This
enabled us to extract only Superfund data from the ENRD data to compare
to the accounting schedules and summaries. The Superfund costs in
Schedule 2 of the accounting schedules and summaries for FYs 2009 and
2010 are shown in Exhibit 4.

 Exhibit 4: Superfund Distributed Costs by Fiscal Year of Obligation 6

             Cost Categories                            2009       2010
     Labor                                        $7,589,564  $7,345,134
     Other Direct Costs                            1,517,963   1,203,812
     Indirect Costs                               12,730,245  12,354,988
     Unliquidated Obligations                      5,739,192   5,023,027
     Totals                                     $27,576,964 $25,926,961
     Source: Schedule 2 of the contractor’s accounting schedules and summaries

Superfund Case Reconciliation

      The ENRD assigned unique identifying numbers to all Superfund and
non-Superfund cases and maintained an annual database of Superfund
cases. To ensure that the contractor used the appropriate Superfund
database, we reconciled the contractor’s Superfund database to the ENRD’s
original Superfund database. The reconciliation identified 857 Superfund
cases in FY 2009 and 843 cases in FY 2010 in which ENRD incurred direct
labor hour costs. We also reviewed the Superfund case designation criteria
and case files to identify the method used by the ENRD to categorize
Superfund cases, and to determine if Superfund cases were designated in
accordance with established criteria.




      6
       The amounts listed in this table reflect actual reimbursements. The interagency
agreements budgeted $25.6 million per year for FYs 2009 and 2010.



                                           8
     We judgmentally selected 29 cases from the FY 2010 Superfund
database to test whether the ENRD staff adhered to case designation
procedures outlined in the memorandum, ENRD Determination of Superfund
Cases (last updated FY 2007). 7 We compared the case number in the
Superfund database to the ENRD case file documents including case intake
worksheets, case opening forms, case transmittals, and e-mails. These
documents referenced laws, regulations, or other information used to
categorize the cases as either Superfund or non-Superfund for tracking
purposes.

      Of the 29 cases reviewed, we found two exceptions – case nos.
198-37-00452 and 198-17M-00965. Case no. 198-37-00452 should have
been reclassified to non-Superfund status in 2010, but ENRD did not change
the status ($56). Also, we noted that while case no. 198-17M-00965 should
have been considered a Superfund case for a majority of FY 2010, the case
should have been reclassified to non-Superfund status in August of 2010
since no CERCLA charges were filed ($1,623). On August 25, 2011, ENRD
resolved these errors by reclassifying the cases a non-Superfund case
number.

Superfund Cost Distribution

       Since we found that the ENRD’s case identification method adequately
identified Superfund cases, we proceeded to review the system used by the
contractor to distribute direct labor, indirect costs, and other direct costs
charged to Superfund cases.

Direct Labor

       During the 2-year period under review, the contractor continued using
the labor distribution system from prior years, which we had reviewed and
accepted in prior audits. The ENRD provided the contractor with electronic
files that included employee time reporting information and bi-weekly salary
information downloaded from the National Finance Center. 8 The contractor
used the following formula to distribute labor costs monthly:




      7
          See Appendix II for the 29 cases we sampled.

      8
         The National Finance Center processes bi-weekly payroll information for many
federal government agencies, including DOJ.



                                            9
Salary Starting Point:   Employee Bi-weekly Salary

Divided by:              Employee Reported Bi-weekly Work Hours

Equals:                  Bi-weekly Hourly Rate

Multiplied by:           Employee Reported Monthly Superfund and
                         Non-Superfund Case Hours

Results In:              Distributed Individual Monthly Labor Case Cost

       For purposes of our review, we:

   •   compared total Superfund and non-Superfund labor costs to costs
       reported in the E&A Reports for FYs 2009 and 2010;

   •   reviewed the ENRD electronic labor files and selected salary files
       provided to the contractor and the resultant electronic files prepared
       by the contractor to summarize costs by employee and case; and

   •   extracted Superfund case costs from the contractor files by using
       validated Superfund case numbers.

       We performed selected database matches to compare the ENRD
electronic employee time and case data against the contractor’s electronic
files used to prepare the accounting schedules and summaries, and to
identify Superfund case data. We determined total Superfund hours were
142,649 for FY 2009 and 134,308 for FY 2010. To determine the number of
Superfund cases with direct labor costs for each fiscal year under review, we
compared the ENRD Superfund billed time electronic data, which included
857 cases in FY 2009 and 843 cases in FY 2010 to the electronic files
prepared by the contractor and found no significant differences in the total
number of Superfund cases with direct labor costs for each fiscal year.

      Next, using the contractor’s electronic files, we determined that the
direct labor costs for Superfund cases were $7,589,564 for FY 2009 and
$7,345,134 for FY 2010. We traced these amounts to the contractor’s
accounting schedules and summaries, and selected the first two bi-weekly
periods in January 2009 and 2010 to review the calculation of the effective
employee hourly rates. We found the contractor calculated the effective
hourly rates in compliance with the methodology outlined previously in this
report.




                                       10
      Overall, we were able to verify the accumulation of reported hours, the
development and application of hourly rates, and the extraction of labor
costs for Superfund cases. Therefore, we believe that this process provided
an equitable distribution of direct labor costs to Superfund cases during
FYs 2009 through 2010.

Indirect Costs

       In addition to direct costs incurred for specific cases, the ENRD
incurred indirect costs that were allocated to all cases. These costs
included salaries, benefits, travel, freight, rent, communication, utilities,
supplies, and equipment. The contractor distributed indirect costs to
individual cases using an indirect cost rate calculated on a fiscal year basis.

      The indirect cost rate was comprised of an ENRD indirect rate and a
Superfund-specific indirect rate. To calculate the ENRD indirect rate, the
contractor subtracted the amount of direct costs from the total costs
incurred according to the ENRD’s E&A report and divided this amount by
the total direct labor costs for the period. To calculate a Superfund specific
indirect rate, the contractor identified indirect costs that support only
Superfund activities and divided these costs by the Superfund direct labor
costs for the period. The rates for FYs 2009 and 2010 are shown in the
Exhibit 5.

                  Exhibit 5: Indirect Cost Rates by Fiscal Year


                     Category                           2009            2010 9
          ENRD Indirect Rate                             166.2%          167.0%
          Superfund-Specific Indirect Rate                22.6%           28.8%
           Combined Indirect Cost Rate                   188.8%          195.8%
          Source: Schedule 4 of the contractor’s accounting schedules and summaries,
          percentages rounded to nearest tenth of a percent

      Using the E&A Reports and the contractor’s electronic files, we
reconciled the total indirect amounts to Schedule 4, Indirect Rate
Calculation, to ensure that the contractor used only paid costs to accumulate
the expense pool. We determined that the total amount of indirect costs for
FY 2009 was $70,011,955. We also determined that the total amount of the
indirect costs for FY 2010 was $74,496,507. Therefore, we found that this


      9
          On August 25, 2011, the ENRD contractor revised FY 2010 EPA Billing Summary
Schedules to include an additional Superfund Specific Overhead expense not included on the
original Schedule.


                                             11
process provided for an equitable distribution of indirect costs to Superfund
cases during FYs 2009 through 2010.

Other Direct Costs

     The other direct costs incurred by the ENRD and distributed to
Superfund during FYs 2009 and 2010 are presented in Exhibit 6.

         Exhibit 6: Superfund Other Direct Costs by Fiscal Year


      Subobject Code and Description                         2009            2010
  1153 – Compensation, Masters                         $         4,419   $      34,239
  1157 – Fees, Expert Witness                                2,473,940       1,721,712
  2100 - Travel and Transportation                             465,556         301,370
  2411 – Printing and Reproduction, Court
  Instruments                                                   5,208           3,544
  2499 – Printing and Reproduction, All Other                     855               0
  2501 – Filing and Recording Fees                                756             316
  2508 – Reporting and Transcripts – Deposition                97,175          85,313
  2510 – Reporting and Transcripts - Court                        433              38
  2529 – Litigation Support                                   773,215         302,292
  2556 – Graphics                                                   0             250
  2563 – Interest Penalties incurred on late
  payments by the Government                                        52          8
  2598 – Miscellaneous Litigation Expenses                      11,247      3,444
  2599 – Other Services                                             50          0
  Totals                                                   $3,832,906 $2,452,526
  Source: The contractor’s electronic files for FYs 2009 and 2010

      As part of our audit, we selected the following four FY 2010 other
direct cost subobject codes to test.

      1157   –   Fees - Expert Witness
      2100   –   Travel and Transportation
      2508   –   Reporting and Transcripts – Deposition
      2529   –   Litigation Support

       For FY 2010, these four subobject codes comprised 94 percent of the
transaction universe (966 transactions) and 98 percent of the FY 2010 other
direct cost expenditures ($2.4 million). Considering the possible variation
between these four types of transactional activity measures, we employed a
stratified random sampling design to provide effective coverage and to
obtain precise estimates of the test results’ statistics. The set of transaction
in the universe was divided into two subsets, a high dollar value transactions


                                           12
and non-high dollar value transactions. We reviewed 100 percent of
transactions in one stratum that consisted of high dollar transactions within
these four subobject codes. In total, we reviewed 241 transactions totaling
approximately $1.1 million as detailed in Exhibit 7.

                      Exhibit 7: Other Direct Costs Tested
  Subobject                                          Number of       Dollar
  Code                      Descriptions            Transactions    Amount
   1157             Fees - Expert Witness                62          $735,026
   2100             Travel and Transportation           108           136,881
   2508             Reporting and Transcripts
                    - Deposition                         30             36,675
      2529          Litigation Support                   41            167,785
       Totals                                           241        $1,076,367
      Source: OIG other direct costs sampled

       We designed our review of other direct costs transactions to determine
if the selected transactions included adequate support based on the following
four attributes:

   •    subobject code classification – verified that the correct subobject code
        was used to classify the cost;

   •    Superfund/non-Superfund case classification – verified that the case
        number appearing on the documents matched the case number in the
        Superfund database;

   •    dollar amount – verified that the dollar amount listed in the other
        direct costs database matched the amounts on the supporting
        documentation; and

  •     proper approval – verified that the proper approval was obtained on
        the vouchers paying the other direct costs.

     Our tests resulted in no exceptions in the Reporting and Transcripts –
Deposition subobject code 2508. However, our tests of Fees – Expert
Witness (subobject code 1157), Travel and Transportation (subobject
code 2100), and Litigation Support (subobject code 2529) revealed
exceptions.




                                               13
      Fees – Expert Witness (subobject code 1157)

      We tested 62 Fees – Expert Witness transactions and found that all
62 transactions reviewed carried the correct dollar amount, were classified
to the correct subobject code and were properly approved. However, one
invoice tested was not correctly classified. We discussed the issue with the
ENRD and they stated that the invoice should have been paid by the U. S.
Attorney’s Office. The $27,966 invoice was inadvertently charged to the
wrong case. According to the ENRD, the U.S. Attorney’s Office intends to
reimburse the ENRD for the invoice amount of $27,966. As of July 2011,
ENRD had not received reimbursement from the U.S. Attorney’s Office.

      Travel and Transportation (subobject code 2100)

      While we found all 108 Travel and Transportation transactions we
reviewed had been appropriately classified and properly approved; we noted
that the dollar amounts on three transactions were incorrect and one
transaction had the incorrect Superfund case classification. Exhibit 8
summarizes our results.

      During our test, we compared the dollar amount allocated to a specific
case number to the supporting documentation. For four of the travel
transactions we tested, the supporting documentation was not sufficient to
support the travel expenses charged to Superfund. However, ENRD has
resolved all issues regarding our review of subobject code 2100. We
summarized our analysis in Exhibit 8.

               Exhibit 8: Travel and Transportation Issues

   Superfund        Voucher         Description of Issue          ENRD Resolution of
    Matter ID        Amount                                             the Issue
  90-11-3-09838     $2,762.63  Voucher 3A10394 should have      ENRD transferred $691
                               been split between 2 different   to the correct Superfund
                               Superfund cases.                 case.
 90-11-2-07135/1 $1,976.47 Voucher 3A06465 should have          ENRD transferred $1,235
                               been split between a Superfund   to the correct non-
                               Case and non-Superfund Case.     Superfund case.
  90-11-2-1049/9    $1,505.74 Voucher 3A08192 reflected $12
                               more than the documentation      ENRD received a check
                               supported.                       from the traveler for $12.
 90-11-3-08304/1     $517.45   Voucher 3A2366 was
                               incorrectly classified. The      ENRD transferred the
                               voucher should have been split   $388.09 to a different
                               between a different Superfund    Superfund case and
                               case than noted on the voucher   $129.36 to a non-
                               and a non-Superfund case.        Superfund case.
Source: OIG analysis and ENRD general ledger documentation


                                         14
      Litigation Support (subobject code 2529)

      We tested 41 Litigation Support transactions and found that all
41 transactions reviewed carried the correct dollar amount, were classified
to the correct subobject code and were properly approved. However, two
transactions tested did not have the correct case classification.

                    Exhibit 9: Litigation Support Issues

   Superfund        Voucher         Description of Issue          ENRD Resolution of
   Matter ID        Amount                                              the Issue
 198-17M-00876     $13,777.64   Supporting documentation        ENRD transferred
                                indicates the correct case is   $13,778 to the correct
                                90-2-20-09922.                  non-Superfund case.
 90-11-3-1776/3    $6,487.98                                    ENRD transferred $6,487
                               The vendor invoice specified     to the correct non-
                               the incorrect case number.       Superfund case.
Source: OIG analysis and ENRD general ledger documentation

Conclusion

      We found that the cost allocation process used by the ENRD provided
an equitable distribution of total labor costs, other direct costs, and indirect
costs to Superfund cases during FYs 2009 and 2010. During our audit we
noted a few discrepancies; however, the ENRD and its contractor have
resolved the majority of the issues identified.

Recommendations

   We recommend that the ENRD:

      1. Develop processes to maintain documentation in order to provide
         complete support for the Superfund allocation processes and aid in
         the reconciliation of ENRD and contractor data.

      2. Remedy the $27,966 of Fees – Expert Witness charges to be paid
         by the U.S. Attorney’s Office.




                                           15
                  STATEMENT ON COMPLIANCE
                 WITH LAWS AND REGULATIONS

      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
ENRD’s management complied with the Comprehensive Environmental
Response, Compensation and Liability Act of 1980 (known as CERCLA or
Superfund) and the Superfund Amendments and Reauthorization Act of 1986
for which noncompliance, in our judgment, could have a material effect on
the results of our audit. ENRD’s management is responsible for ensuring
compliance with federal laws and regulations applicable to the ENRD. In
planning our audit, we identified the following laws and regulations that
concerned the operations of the auditee and that were significant within the
context of the audit objectives:


  •   Comprehensive Environmental Response, Compensation and Liability
      Act of 1980 (CERCLA), 42 U.S.C. Chapter 103, Section 9611(k)

  •   Superfund Amendments and Reauthorization Act of 1986 (SARA)

      Our audit included examining, on a test basis, ENRD’s compliance with
the aforementioned laws and regulations that could have a material effect on
ENRD’s operations, through interviewing ENRD’s personnel and contractor,
analyzing data, assessing internal control procedures, and examining
procedural practices.

     Nothing came to our attention that caused us to believe that the ENRD
was not in compliance with the aforementioned laws and regulations.




                                    16
                                                                 APPENDIX I

             OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

       The objective of this audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor costs, other direct costs, and indirect costs to
Superfund cases during FYs 2009 and 2010.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. To accomplish the overall objective, we assessed whether:
(1) the ENRD identified Superfund cases based on appropriate criteria,
(2) costs distributed to cases were limited to costs reported in the E&A
Reports, and (3) adequate internal controls existed over the recording of
direct labor time to cases and the recording of other direct charges to
accounting records and Superfund cases.

       The audit covered, but was not limited to financial activities and the
procedures used by the ENRD to document, compile, and allocate direct and
indirect costs charged to Superfund cases from October 1, 2008, through
September 30, 2010. We compared total costs recorded as paid on the
ENRD’s E&A Report to the amounts reported as Total Amounts Paid on the
contractor’s year end accounting schedules and summaries, and traced the
costs to the Superfund cases for FYs 2009 and 2010. We also reviewed the
contractor’s methodology for distributing direct labor costs and indirect costs
to Superfund cases for FYs 2009 and 2010. In addition, we reviewed the
ENRD’s methodology for categorizing Superfund cases by comparing a select
number of Superfund cases to the ENRD’s Superfund case designation
criteria for FY 2010.

       We performed detailed transaction testing of other direct costs for
FY 2010. Considering the possible variation between these four types of
transactional activity measures, we employed a stratified random sampling
design to provide effective coverage and to obtain precise estimates of the
test results’ statistics. We reviewed 100 percent of transactions in one


                                        17
stratum that consisted of high-dollar transactions within these four subobject
codes. In total, we reviewed 241 transactions totaling approximately
$1.1 million.

       For our assessment of internal controls over the compilation of direct
labor charges, we relied on the results in the U.S. Department of Justice,
Office of the Inspector General, Environmental and Natural Resources
Division Network Computer Security and Case Management System Internal
Control Audit, Audit Report 1-19, August 2001.




                                     18
                                                APPENDIX II

        FY 2010 CASES IN SAMPLE REVIEW
       Case Number                 Classification
90-11-3-13148              Appellate
90-12-02828                Appellate
198-53-01174               Criminal
198-17M-00965              Criminal
198-37-00452               Criminal
198-44-00607               Criminal
198-50-01044               Criminal
90-11-5-05965              Defense
90-11-6-05817              Defense
90-11-6-17666/1            Defense
90-11-6-18314              Defense
90-11-6-18771              Defense
90-11-3-09945              Enforcement
90-11-3-90/2               Enforcement
90-11-2-09104              Enforcement
90-11-2-48D                Enforcement
90-11-3-08696              Enforcement
90-11-3-08304/2            General Litigation
90-1-23-10202              General Litigation
90-1-23-12162              General Litigation
90-1-23-12820              General Litigation
33-46-434-07072            Land Acquisition
33-14-965-12007            Land Acquisition
33-41-128-07655            Land Acquisition
33-41-128-07659            Land Acquisition
33-41-128-07665            Land Acquisition
90-12-01316/1              Law and Policy
90-12-01779                Law and Policy
90-12-02933                Law and Policy




                      19
                                                                                   APPENDIX III

     FY 2009 ACCOUNTING SCHEDULES AND SUMMARIES

1m F        T       I                                                                           ,
                                                                                   "'_"L~~'lIc-l"




January 20, 2011



Mr. Andrew Collier
U,S. Department of Justice
Environment and Natura.l Resources DiVision
Suite 2038
601 0 Street N.w.
Washington, DC. 20004


Dear Mr. Collier.

Enclosed please find the following final fiscal year 2009 year end accounting schedules and
summaries relating to costs incurred by the United Stales Department of Justice (DOJ).
Enlilronment and Natural Resources Division (ENROl on behalf of the Environmental Protection
Agency (EPA) under the Comprehensive Environmental Response, Compensation and Uabillty
Act of 1980 and the Superfund Amendments and ReauthorizatiOn Act of 1986 (SARA or.
hereafter. Superfund):

       •    EPA Billing Summary - Schedules , ·7
            S~ptember   30, 2009

       •    DOJ· Superfund Case Cost Summary (electrooic copy)
            As of September 30, 2009

       •    DOJ - Superll..lOd Cases· Time By Attomey/Paralegal
            Year Ended SeplemberJO, 2009 (el ectronic copy)

       •    DOJ - Superfund Direct Costs (electronic copy)
            Year Ended Seplember 30, 2009

The schedules represent the final fiscal year 2009 3rn::1Unts, and establish an IndIrect cost rate
appUcable to the entire fiscal year. As a result, the summaries included supersede all prior
preliminary infonnation processed by us relating to fiscal year 2009,



                                                    20
	
Mr. Andrew Collier
U.S. Department of Justice
January 20, 201 1
Page 2


The scnedules, summaries and calculations have been prepared by us based on jnformation
supplied to us by the ENRD. Professional time charges, salary data, and other case specific
cost expend itures have been Input or translated by us to produce the aforementioned reports.
Total oosts Incurred or obligated by the ENR D as reflected In the Expenditure and Allotment
Reports (E&A) for t/'Je period have been used to calculate the total amount due from EPA
relating to the Superfund cases. ComputefiJeneraled time reportjng information supplied to us
by DOJ (based on ENRD's accumulation of attorney and paralegal hours) along with the
resulting hourly rate calculations made by us based on ENRD-supplied employee salary files,
have been reviewed by us to assess the reasonableness of the calculated hourly rates, All
obligated Labor amounts reflected 00 the E&A's as of September 30, 2oo9, which are nol
jdentif~ as case specific, have been classified as indirect Jabor.


Our requested scope of services did (lot constitute an audit of the aforementioned sctledu!es
and summanes and. accoroingly, we do not express an opinion on them. However, the
methodology utilized by us to assign and allocate costs to specific cases is based on generally
accepted accounting principles. including references to cost allocation guidelines outlined in the
federal AcqUisition Regulations and Cost Accounting Standards. In addition, we understand
that the OOJ audit staff will continue to perform perloclic audits of the source documentation and
summarized time reporting Information accumulated by ENRD and supplied to us. Our
accounting reports, schedules and summalies Will, therefore, be made available to DOJ as part
of this audit process. Beyond tile specifIC representations made abOve, we make no other form
of assurance on the aforementioned schedules and summaries.

Very truly yours,
FTI CONSULTING, INC.




WHliam M . Kime
Senior Managing Director

Endosures




                                                                                im      F    T



                                                21
	
                                                                                                                                                                       ~c h~dul e   I
                                                                                EPA BILLING SUMMARY
                                                                              SUMMARY OF AMOUNTS n UE
                                                                             OY If\JTt.:HAGENCl' AG RI<:EMENT
                                                                                      September 30, 2009


                                                                                                               fi~cal Ynr~


                                                                     liQ!                 ~                     204)7              1!!Q;                 l!!!l            l!!!il
liP A DiII illK SUll1 ll1 M - AII1 01l111 I'll ill
                           ry                                   S 21,837,772 (II) S 22,322,m           (b) S   26,ISG.9!iO (b) $   24.~&3 ,525   tb) S 26,773,390 (b) S 27,830,737 (b)

                    AJIj;
  I'aymenls in FV2()Q9 for2008 (I)                                                       J,07S,7M

  Paymefll~    in   ~V   2009 for Z007 [II)                                                                       134.364

  Payments in FY 20(}9 ror 2006 {~l                                                                                                   657,815

  I'nyment\; in FY 20(}9 for 200S (I )                                                                                                                     44,122

  l'uYIJICIlLS ill FY 2(1)9 f()t 2(1)A (a)                                                                                                                                         (128)

                                              Suhllltni            2I ,m.772             25,39H,OI 6           2 ~ .m,3S4          25,24\,340          26.817,512       21,810,609

  Uilliquidated Ohllgatinlu (e)                                      j .73'/.I92           376.137                472,740               6,211             159,m

  l 'olal                                                       S 27.576,9M          S   25.774,I~j       S    26,788,(194    S 2S,247,5S 1          S 211.976,983   S 27,830,6{W




                                         (Il) See EPA Dillins Summary, ScllcdJlle 2, Seprember .30,2009
                                         (b) SC( EPA Dilling Summruy, Scbcdute t, September 30, 2008
                                         (t) Sre EPA Billing Summary, Schctlu le 3, $('ptcmber 30, 2009




                                                                                                       22
	
                                                                                                                                                   Scbl'dule 2

                                                      EPA HILLING SU!IMARY
                                      SUPERFUND OBLIGATION AND PA YMENT ACTIVITY DURING 2009
                                                  HY FISCAL YEAR OF OBLIGATION


                                                                                       FisMiI Vear$

                                             1009             20(111           20(17              20M              100S            100.              TOI!lI
A'l(l~nl$   "!lid;
     Labor                             I ),l39,l64       S                 s                  S                S               S               s      7,589,564

     Qlhcr Direct Costs                     \,511,963         I,SG3,557         118,372           646,191            46,723                           J,8)2,906

     Indirrct Com                          12,7)0,245         l,m,lO?            Il.992               11,624         (l,OOl)          (128)          1>1,321,239

                          SuhiOlai         2l,m,m             3,01l,)1;1        114,364           657,m              114,122          (128)          25,74 9,7~


U.1iquldatrd Obligations (a)                5,/39,1 92         376,\31         412,740                6,21 1        159,411                           6,753.751

TU1~b                                  $27,576,964           S),451,901    S 607,J(14             S664,026         S20),m            (S128 1         j2,5~J.460




                               til)   S~   Schedule 3




                                                                                       23
	
                                                                                                                                    Sf.hedu le 3
                                                     EPA UlLLI NG SUMMARY
                          FISCAL Yi::ARS 2009, 2008, 2007, 2006 AN1l200!l UNLIQUIDATE IJ 08LIGATIONS
                                                                Se~ lember   30, 2009




                                                                                              , -
                                                                                              flocal   yUI'!l




ENRD Unliquidal~d Obligations
 at Sl-ple.llbn 30, 2009                             ,
                                                           lJll>2

                                                           24 ,018 ,3 65   ,
                                                                                WI

                                                                               2,%4 ,6(S6              1,618,103    S
                                                                                                                        "" ,
                                                                                                                        415,SII
                                                                                                                                        lJ12>

                                                                                                                                         247, 860
Less: Un liquidated Obl igations:

  ~Iion    1595 (a)                                         8,310,944          1,683,0 56               663 ,910        392,316           87,625
  Secti on 1596 (b)                                           502,219            794,246
  Section J59S (e)                                          3,659~03             ) 49,45 I              338 ,596           2,070         159 t270

    Subtotal                                               12,472,366          2,826,7SJ               1,002 ,506       394.446          246,895

N(!I Unliquidat ed Obl igat ions - ENRD                    11 ,545,999           13/,913                676,199           21,065             '65
Superfund percenlase (d)                                     18.0148",          19.)4WIo               19.8)80%         19,(;570%       20. 8205~

Superfund portion of Unlillu idlll~d
  Obligatio""                                               2,(l79,~89              26,686              134, 144           4.141             201
Add · Section \598 Unliqu idated
  Obligations                                               3,()S9)OJ            349,451                338,5%            2,070          159,270

TOlill Superfund Unliqu idated Ob ligations (e)      ,      . ;139 I92
                                                            S
                                                                    J
                                                                           ,     376.131     ,          472 740
                                                                                                           1
                                                                                                                    ,     6.2 11    ,    159.47 \




(a) Section 1595 relates to reimbmnb lt am{mlU, from agendf ! other Ihan EPA.
(b) Section 15% ~Iates to non·Su~rfund charges.
(c) Section 1598 rei ales to charges that an: Superfund speci fic.
C Superfund p<.'!'Cenlu¥e of unliquid!led ob ligations was cal culated by divi dini yellf to dIlte Supfifund
 d)
      direct bbor by the IOlal direct labor for each of the fi~al yean.
(e) Relates only 10 unl iquidated ohligations for the (isnl year ind icated_



                                                                             24
	
                                                                                                                     Schedule"

                                                  EI'A lULLING SlfM.l'IL'\RY
                                               INDIRECT ItA n : CAI.CULATlON


                                                                                                                       Tolwl
                                                                                                                      AlllOunts
ikKripl\t;Ju                                                                                                          Paid (a)

Ind ireetlabor(b)                                                                                                       $29,334,S14
Fringes                                                                                                                      18,444,112
lndireel1rll,'cl                                                                                                                363,82 1
Freight                                                                                                                         32[1.115
Offic~ .plC~ and "tiliue.                                                                                                    12,04 1,110
Prillting(fOrnlS-, etc.)                                                                                                         ~(>,212
Trai ning ""d "ther ser\l kes                                                                                                 1,287.(>17
Suppli~                                                                                                                         6~3,S38
Non.copitali:ttd e-quipmenl ;mel misccl1anrotl5                                                                               L2qG~9G


   Subtotal                                                                                                                  70,011,9S}

Total Oir.ct Labor                                                                                                           42.1 2~.6J8

    ENRO Indireet Costs          Rlll~   - FrY 1009 ObliglloolU                                                              J66 .1822%

Pl us: Supo:rfund   Ind ir~ct COblS      for f>rior Y= Ob liga limls (c) ""d   Sup~rfund    Spo:ciflc Cost. (d )


                                                      """
                                                      2008
                                                                           S 117,739
                                                                            l,S72,I07
                                                                               15,992
                                                      200'
                                                      2006                     11,624
                                                      200'                     (2,601)

                                                      20'"                       (128)

                                                             TOlal                                1.714.132
  Superrund Dire"1       Larn"                                                                    7,S89, 5~


  SUperfund ind irect Rate:

TOla l Indir,.c1 R,a1t



               (u) Indirect eo., rate caku l:nions ure pre'.lcotcd on Dfiscal }'CSf-IO-dalc oollis. All
                         c~ .~ilk."d oth~r Ilnalio"'able co~ts (Se<oti<l n 1595 aDd 1596) have t.e.:n
                         remov",L
               (b) Indil\.-':llabor and fri nges indud~ certai~ ml)1l1h .... nd ohliglltioo accruals,
               (c) Indirect cost paymclIl:i lOr the prio, reM ()bli~i()n~ incl~dcd in the wta!. presancd
                         m" ~S follo" s: $1,488,lS4; $15,\192; :S5J3S: -$2,601and - SI28; for Fry 200 8
                         tlo,.,.l.Jgh PI\' 2{)04 r.>feo:ti~fly.
               Cd) The balan.e ofth. c~arge~ in Ih. lotal~ p'c:>ented were paid during ii~,~l year 2008
                         \0 m~in !u in SUJ)C rfund case infl)rm~li<ln or perf~rm (j1 h.r Su p~rfund Specific
                         aCTIvities" Thc~e cbllJ"IC5 were in i\luted as a rcsult of Superfu nd and !Ire
                         ofbe-Ild"i\ Qnly 1Q th~ Sup~rrulld Program" lll~ ha~~ bc~~ allOl."uted on ly I()
                           Superfund cases lhmugb th is s"J'Il'U r"    indir~"I;1   apprOllCb. The charges are S I 11,739;
                          S83,nJ: $0: $6,089 and $0 fo r t"ry 2009 lhl"DlJgh FlY 2005 _f""cllvely"




                                                                     25
	
                                            E I'ABILLlNC SUMMA R"
                                 SUP ERF"UND C OSTS BY O llJECT CLASS JJo~I CATI ON

                                                            S~p l embu      30, 2009


Obje"'l                                         Uir~                     ....II ....'"           Un liquldalC!d
 Cl.."-...
      .              Ue'<,' ril'linQ          EX(M?S&:."I               .:"petua                Ob liplJo QJ (b)       ToIIII

                  Sab,riu (a)                58,.$42.017                  S.5,423.862                 $2,44'1 ,32.4   SI6,.U5.14J
    "
    12            BeTldilS                                                  3 ,J22,770                   172 ,807       3 .495,,83

   21             Travel                         438 ,022                        6'.540                    "" ,803        ' 49,365

   22             fuill.h l                                                      57,679                    10 ,650         611 ,329

   23             R1:nl                                                     2.1 69. 177                  T70,U6         2~940,06J

   ,.             Pri nting                         -.023                         HI,Ii(;7                  4 ,656         2 1.346

   2>             5enoic:es                       121~                      1.3 12,9 17                2.26 0,44l       3,094,78,

   2.             Suppl iC'S                                                    119.'35                    2.1,612        143.2 17

    31            Equipo'ndl l                                                                                94,         249.033
                   TO$al                     $9. 107.527                                              SS.7J9. 192     527.576.964




         ( ii ,    I.I\cl ude>l l:O!IIS for d irecl Mx .... "peeial "'11"'<="" and rxpen w itneues,
         (I;»      IU:pro!llCnl $ th e S upe:rfun d I",n ion o f un IIqu idllied da IlH'Iles.




                                                                                26
	
                                                                                                                Sdltduw ()

                                                 Er A DI LLING SUMMARY
                                         RECONCILIATION 01: TOTAL R/IIRU EXl'EfiSES

                                                           Stptember )(1.1009
                                                                                                    IA lflrKt
                                   -SufKrlund-                      -Non..sll pi'rl'llrw-           &-t1lou       TOlll1
Ubjff\                         IJifTtl      Indirttt             Uir«t             l.nd iITd      15~~& 1596     Amount,
~        lk'l(' r illlivil   E,!lflISg        ['1'"_           f:J l"llli~         E,I'!""~"       EI II~I~        Puitl

  II     Sa llnc~            U.J42.0H         S5.423.862      534,8S0.252       S24.21".m           $268.537     573.19&,8&6

  12     Bcnd iu                               3,J22,776                          1~ , 12 1.937       35,~80      18.483.693

  21     'ft'ill'el             438,022          65.540         2,3 \ 7,9<1'        198,281          17 1.:m       3,291,093

         F~iSlll
  "
  21     RenT
                                                  57,679

                                               2,169.117
                                                                                     262,495

                                                                                   9,611,933
                                                                                                                    320,17ol

                                                                                                                  12.041,110

                                                                    ~ 5.064
  "      l'tllI1hl¥               6.023           10,661

                                                                un,fiRS
                                                                                      4~,S45


                                                                                   ~ .97j.06l
                                                                                                                     110,299


  "
  26
         ServiftJ

         SUJlPl i~
                                121,425        1,312,9\1

                                                 119,535                             S+4,003
                                                                                                   3,117,644      13,8&4.737

                                                                                                                    663,m

]1&, 42 Equlpmtnl                               248,092                            1,1163.011         41,538       1.3s.t.M1

Tnl.1                        .~9, I07j27     S12,730,245      SII0,'70.999      557,399.452       $1,639.9S4    SIU·U S.ln




                                                                 27
	
28
	
                                                                                       APPENDIX IV

FY 2010 ACCOUNTING SCHEDULES AND SUMMARIES


                                                                                     T,""'.. .. _ _
                                                                                             - '


 Augua 2!i. 2{)1l



 Ut Ar<: ...... CoIN,
 U.S. ~ of J..:iot
 ~nI aI"Id P-IatlJraI R--..-.... ~
 S!JiIQ 203B
 60105'"""'1 N.W.
 WMhinglon, DC, 20004




 Endosed piOase lin:! 111!1 1~ ,..,. IIK>II )"III' 201C1 ~ en:! ..x:a.o!lng 1Idle<l..- arod
 lu" .. Aoe; - . g '" CIlEQ; lnc:IIrf.a I>J IIW UroMld StaleS 0epI0ntn0rIl d Ju5Iic:e CDOJ).
 EnWun<renl_ Natural ~ CMIio1I (EHJilOjon beMlfof l1li: ~III f'roIotdocln
 ;.gwq (EPA) un;Ief I1'e Compretentlve (J'dDld''''''toII Re-s~. Comlonsa\Q'o _liability
 AO. of IlIIIO _  Ihe s.-tfuod ....         '.o'oe!IlIs _
                                                      ~Iiort hi of 1968 (SARA or.

 lief"""'.~~
               EP.... 8<I.,o"g $UMl.~.~ 1·1
               SIIplEi~30,         2010

               OOJ · 5upeo100d can Co.I Sum"",,">, /eI!!atooic cow)
                    SilpIftrr1ber 30, rol 0
               ..., rA.

               OOJ· SUf>eo1UOf1d Cas.. • fiITII e~ -'tIome)'JParalegoll
               '1'....- EroOed SeQl.ombtr JO. 2010 (~""!'VI

               [)OJ -     SUpoofi.O"lCt Oirtd Co... (MaI(lIOC 0lP)i)
               Y... rEroto.d~JO . 2{)10

 nwo Id"1eduje5 ~p<esonIlI\iiI ft ..... '!sail rear 2010 ftI1'U.r>b .... _  8/\ Irldnoc:l 0011 fa ..
              troe~rni<e lisc:al rur As. rw.M. h
 'IPI ....... ID                                          _ _ "'" ino;Iuded _ _ .., prior
 prllilimlroilfy 111Igrm:1iorI ~utC by "'" rMIiIIg 1Q n~ 'IN" 2010




                                                       29
	
.........
AUljUllt~,
"ege 2
                 -
US. o.pal1mt1'rl rJ JUlIA
                 2011




The - - . ........wJH _                   c:JaI~       1'No... bMn preJW1Id by UI o.ed :lfI InIom'I8IGn
1II~         III .. by IIW I!NflO_ Pte'
CD&t 1>epanCI~"" ~ ~ ~OI
                                                  < .......... ~, ~ 11&111.  Jnd otII. GlM
                                          uln...u.cr trf' III ICI pIOduee!he fb"I_~1oned IIIj)ON
                                                                                                      "**
TOI:II coat. Ino.mo<;I ot ~ ~!No ENRO ., .aI'....1tId i1 fie ~~UI. and NIoImerlI
RIIIXlrtJ (EM) tor It4 pefbl .... ve been \IMd kl Cllk;lJWite Ill_ to\aI .:rKI\Ii'!t U If001 EPA
reI,ling kI the Suptrfuoo _ . ~ne .. teo tIIIW r.POr1Ing Wormallon ILlPIlIied to U1
~ OOJ (bned 011 ENRO'a m;cu11ulatllm 01 l llOmI)I and ~alegal nour.) aIorIg witn !he
1ltS\J1't>rIG hourly I'll!' ...1cubt>onJ ~ by UI ~a_ an ENRll-£u~ ~ A1afj1l\h11s,
N"" _            ~            by ..     Itle ~ ~!he QbAted ~ IllC8S AI.
                                      II) • . -

oMgalotd IIobDr atr"ODInI ~ DO !hoi r" ...·.... '" Sep;,oo .tJolI 30, 2010 wndo IWe no!.
~ 101 _           spKiIic, I\aW DIItn tl8ulfolld H 1nd:..c111bcr

Our 11(Iq..-ted _         01 sem- did fIDi -..tilII1II .. IIIIdit aillw 1II'00",tef\Iio-.cl!ld'teclAK
and 51..,..,...," alld,   Kalrdirllj~ ..... do rIO! ~ an OC:<flIOIl !:II' IMm          HoweVeI, t~.
metl"oociolo\ly \/tM1zId by III Ie IUtt> lind oIot.atto lXlb lei ~ _         It ~ an v-0'I8r.III)I
accepted .CCOIJIIUng prjncjpl'I.lndud~ mrono;el Ie co.! al\o<;lllion guldlllll>9ll l>uldnod.., 1"­
FederW ~1h~1On Rog.Jebons!Wld Cgot A/;o;OJf1ti<lg Sto~ In add~io!1 ..... Ut\(I!If'Stand
hit Ito> DOJ IOI.(loI . . , wiIj a>r'II:ir\llIlCI perform l*1o.:loc iIoUCIlts <;II !he 100"- 1Iog,,1IlI!t1~ ~nd
                t;n. ~ nfmMtoon ~ by ENRC and ~ 10 ... Our
SU\ .. , ... i>:ad
XCXlUnIlI'Ig 11IPOIU• ..:hedu"",,, and ~W •• lhelekn, bIt..- ~* 10 OOJ .. OIIrt
of Ill.. IkQI cr'OI:leQ 1!eyorIcIII'III!IIIdIc 1'lI~._ mild, ................ roo CIIIeI' bTn
d _ _ on IIHo               _&'0;0 II_J at.IIedo.AM WId IlII'm'III'I8t.

Very truly )'OIn.
FTI CONSUL1INQ, INC




wa.mM           1<1....
Sentor MoIIOijji 'll      OIrfClOl




                                                                                          1m F           T




                                                       30
	
                                                                                                                                                                                             Sch...ble I
                                                                                     f.PA BlLUNG SUMMARY
                                                                                SlIM,\M.JtY OF AMO U1ltrs n ut;
                                                                              BY I,,
                                                                                   "J;RAGE NC Y ,It,GRr.F \ 1 ENT
                                                                                                            ...
                                                                                      Sql lfmbcr J Il.1O\ U




                                                                     lliJ!                       l!lJ!2
                                                                                                                     FhCOI Yun

                                                                                                                     m!                      l!lOl                       , ..
                 ...                                            I                    ( ~)   S 1l ,8)1.772 (b) S      l' , 19~,Ol~        S   26..31~.3~J       (bl S 2'l,241 .3411
                                                                                                                                    '"                                                  '"
EI' A Hllllnl: S""'l1 uy • A,n"un L I'alll                          10,903,9.14


 "~Ylne"lj     In FV 20 10 f(lr2009 (a)                                                          J ,OHO ,22~


 I ~Y"'~lIl'   11, 1'1' lOIU rUt   ~OOI   (I)                                                                           I ~~~J


  l'~ytht"Li '" FY 20 I 0 for 2007 (II                                                                                                           'loU,II2,.1

  P~ymen"      in FY 2010 Ii" 2006 'II                                                                                                                                         (l:!S)

                                                S"bt()l~ 1          20 .'~03 ,\Il4              14.91 I ,1lOO        l S,mJ69                26,406,17'                 15)~12 1 5


                                                                                                                                                1 ~,07S
  lJ nliq uklMltoJ ObU,.,lo", (0)

 TocI)                                                          ,
                                                                     3,023,027

                                                                    23,926.%1               ,
                                                                                                 2.3t,111.1»12

                                                                                                27.301 ,012      ,
                                                                                                                         '/1,111"

                                                                                                                     2'16:lI,Sj6
                                                                                                                                /

                                                                                                                                         ,   26.!l12,l'3            S
                                                                                                                                                                              '"''
                                                                                                                                                                        23 ,243 .42 ~




                                          (a) See EPA gillin, Summary. Schedu~ 2, SqlIembtl-lO, ~OIO
                                          <to) S:lt LPA Bllhng SYmmill)', ~bWuj(, " s,:pttmbn' )0, lOO9
                                          te ) S"" EPA Baling Sworniii)', Sckduie 3. ~~ )0.1010




                                                                                                     31
	
                                                                                                                               Sf-hrdulr 2

                                                           EI'A BI.LLl NG SUMMARY
                                   SUN;RFIJNn     OIiL I G ATlO~     AND l'AVMrXT AC IWITV DURrNG 10 10
                                                      UV YISCAL YEAR OF OBLIGATION


                                                                                 tWII V. an

                                              1010              l!l!Il
Amy-nl! !'.Id;
                                         ,    1,l4~, I3.
                                                           ,                     , "'"           • "'"        • ""            • "'"
     """                                                                             IJ9,J~~        11.,412
                                                                                                                                  1,345,134

                                                                                                                                  2,.~2.~26
                                                                                                                       "
      Otter Dlrecl COltS                      1)0),81 2         ! ,()Q1 ,!I4()

      Imli=1 COM!                            12,JS4,(188        1,932,6ln             16,0 1 ~      79,3 52          ( 192)      14, 382,; %

     Supnfun<i Pro£r3m "'-penJb                                     49.751                                                           4Q,15&

                              SUlmilJI    20,90),9)~            J,OHO ,12~           IS5J53         9(I.12~        ,, 25)        24.130;1 14

UlIliqllldmltd O bllenlol1s II I              S,02),027         2.391),0. 2          18,181        106,015        2.209           7,599,580

lIltll>                                  5"-5.'J26,961         SM7fi.l lil       ,   l33!~O       S196,8~        52,11B4         3J.1l9 ,1<J4




                                                                     32
	
                                                                                                                                           Sc-hld"lf' )
                                                             EPA 8ILLI1~(; SU MMAR\,
                              F ISCAL VEA I(S '1010, 10011, l ull8, 11101, AN D 2006 UNLIQUIDA1' UJ OBLICA Tl Ol'lS
                                                                  S'I"..", be r 30, 2010

                                                                                                      flisel XSln

                                                                20UI
                                                                                      'N"                                     12111
ENRO Ullliqu ldal«l O bllg.tioll$
  .1 s.,ptu , bcr lO. 2010                               ,      )3,692,756       S 1.960.172         , "'"     688.043    ,    324.166     S
                                                                                                                                               """
                                                                                                                                                 31,9&8
L~.   Unllq"ud:.Ito!d Obl ilPti"",·

  Si.<Iioo  ' ~9~ (II)                                          16,911.60<1          1.W9,137                  ~9.1%           20j.4~            JO,m
  &.:.I;""" . ~96 (b)                                            1,3 19.981             27.322
  s...,IIon   159~   Ie,                                         2.979131~           2.182.714                  "J.n7          102.<JQ4            2,000
    Sub'oul                                                     21,277.911           3,919271                  6U,Sn           308,383           32,923
Net U.. IKI""dIIlcd Obl;gllionJ - EN RD                         12.4 14.J4S              40,&99                 74.470          15,'l83            1.065
Superfund     I"'l'Ccmag~   Id)                                   16 4618%            18.01411"'10            19349m          19.1\]110%       1'1.6S7(1"Ao
Supr""nd p«Tion 0 1 Ll nhquidateJ
  Ohligatioru
Add. &:-0;1;00 1591 Vllli~"id.«:d
 Ohli._,i,...
                                                                 2,OO.7M                  7.361£                 I~AIO           ], 17 .
                                                                                                                                                     "'"
                                                                 2 .<n9.325          2.]32.1 1 ~                63.777         102.904             ' .000
Tenal S.prrfu .. d U.liquidlllcd Ohti-gmlton. (t)        ,       S.OD.lll7
                                                                                 •   2.J90.03:!
                                                                                                     •          71, 117   ,    106.075
                                                                                                                                           •       2.209



(II) Seclioo I S?5 rclule8 I() r~imbul'S.(lbk >lmOUIIIS frulll Igell<lie. olber tWo .. EPA.
Ib) l)eeWft 1596 re ll.tCllo non-Suprrl'utld charget.
(e) SKlion 1$98 relales!O (IUrges Ij,," ~. Superfun<J 1p"~lfic.
(d) SO!p<:dund p",-,:ulaM" "f"nl iq"id>.t<-d "bEp,i<M.. wn ul..,,"~t .. hy t1 1V,tl inl'-~'~__ ' O> tI,,, .. S,,~t\md
                                                                            .d
       dirocl bbor by t be ,otal dlT«! lat>or for- neh of Ih e fiiK:IIl ) nn.
(~) ReI.ld on l} In Wlhqll,aa:.e.J ob bg»lIon, for lh~ rl3Cal r-- indic;u:cd




                                                                       33
	
                                            £I'A IlLU!\G SL~l~l,un
                                        L'IllIllr.cr RATI CJ,.I.ct.ll.ATIO'...




 ...
I'l...,.",.r..

, ~,·"-(~I                                                                                                    S)1.)l6,~I~

'
1""'_,....<1                                                                                                   .zo.6)j]OoI
                                                                                                                  m.un
,.",                                                                                                              :'71.'"
          ... _-
ul1... .....,. ... ";1,_                                                                                       IJ~U"




-
_.-.r\r-.. .... ,
.--.,.         .....                                                                                               *'"'
                                                                                                                ,",lU~
                                                                                                                  112,11'1'1
_     V·· .... "f01pftooI      ........... _ _
                                                                                                                   ","/

     lrnlb ,,,,00(1 c... .. ~ .... "V tIIl~ rllll,JOI_                                                          IM,'I6OOI-.

N",· S.... _       1 ,jJ<t,eoll> "" _
                    ,                      yOWo.o~..,. .. ~{<    I"'"      ~""d        S;.« ilkCooldI d ,

                                                                      ,      91.HI
                                                                          I~JU1~
                                                                             1..011
                                                                            "",,'
                                                                               119!1


    ~,,_0ncI1"'"




                 I_I ...... '" _ _    c:llr._ ...
                          _ _ _ If" .... _
                                                       _"IN '"' • 1\0<&1 ~, ..... ...!o.. t.l.. lUI
                                                ..... ""'..... O<IIl5o<l100 1 !~ OOIII IWO)_.....,


                 1 1
                         ,""".,..".
                 11>.l 1"'ina 1_ """ ~lo,... ........ " ,\110 ~ 001,,_ """""._
                  <1 _ _ I ~., _ ..... ,.~ 1"'<)'" o~bl"'- ... _                .............
                      . . _ ,.. ...... SI , 114.'!~ III ;:»; 17'J!1. .... - ~I'! , fur 1'Y!009
                                                                                                    _oJ
                         """"" fly X'O' .......... <1)-
                 1<\1 1Jic ........... 'lwcio-po ..... _ t . _ d ..... poId<Jo. . . f _ l " :)10
                         ", __ ..........,....e. __ """--"I
                         _ ".... ...... _ .........
                         0I1o<1o<1'11....,. ...... 5.,d..0I .......
                                                                           _"'~I..nd
                                                                          Jloo)' ....~_ ....
                                                                                               .......
                                                                                               _S\I«>Il<


                        '*, 11IO<l_ ...... .w. .......           ~_
                        g1.106._5j:IH..... ., "IV Xli' """"d< 'IY :00._"...
                                                          (;or
                                                                                                  ' . ..,..
                                                                                       k""'~_,..I,j)l ,




                                                       34
	
                                                                                                                        S d ... dul e S

                                                  E PA BlLl...lNG       S U MMAJ~)[
                               S UP E RFUND C O S T S B Y OB-fECT C L A SS1F' CATlO N




Object                                      D i .... c l             hulin.."<'1             U ...li q uidal e;d
~               D C!<c rjul i of)        E1 1'''-'' '''''''         K ~ p"' n~ .. s         Ob li!.l ll i io " It (h)      T ouol


  "
  n
           Sal aries

            I)en .. i'j ~
                                        S 8 . 176.6 75               S5.24 8.~3 0

                                                                       3 .395, 10 5
                                                                                                       $2. 0 9 4 .007

                                                                                                           17 7 .392
                                                                                                                         SI5519.2 1:l

                                                                                                                            3 ,372.497

  2>       ' l"l'av",1                        21:(7.373                     53,11 4 '                       5'5,233            396 .4'17

  22       F rei ght                                                        44, 720                         13,620               5 &,3 4 0

  23        R cu t                                                     2.230, 135                         41 5,26.=5        2, 64.=5 ,400

  24        Prin tin g                            3,48 9                      7, 613                          7 , 716            1&, 11 18

  25        Seryiecs                            H lAO!!                 1,241'>.663                     2. I 'JY.52 l       3,527 ,59 2

  2.       Sll pp ]j~                                                      117,220                          20,74 6            13 7 ,966

            EqLl ip", ,,,n l                                                                                 39,527
  "          T o tal                    58. 5 48 .9 4 .=5                                              S5, 0 23,027
                                                                                                                               5 0 .68 8
                                                                                                                         sn, 9 2 6 . 960




       ( a) inC- Iud d C()81~ fo r d iJ"c c \ labOr, s p<: cia! m ~[ct>< and c ",p .,.rt w ; tnc~ ".
       (b) R.., p res",n' " the Superfund pani on o f u n l iquidat ed damage s,




                                                              35
	
                                                                                                                              Sd,edllic I>

                                                           EI'A lULLING SUMMAR Y
                                            RECONCILIATION OF TOTAL [NItD t: XJ' ENS t:S

                                                                  Septe mber 3(1 , lU lU
                                                                                                               In<iin 'C'l
                                   --su!>""rll"d--                          _ Non.Su""rfll lld _               Sr< liu D        Tot. 1
Objc~(                        Di,,,,,,            I,, <iirf ~t           Dlrl'CL          l" u ' l"t'C t     1595 & 1596       An. o"n ,""
 C I. ...   1l~'H' n'If)"   [).I"'" '<'J;        [l i/<"O>U             E~ I~            E ~ p cas...         [ lPU_             f' aid

            S:ob rie t      U ,I16, 675          S5,14 3,5:l0         S:l7,J79..52 S       $26, 110,008
   "        Bc"efil~
                                                                                                                5 l 83,211     S77, IS7.95 8

                                                                                                                                20,64 8.)90
   "        T ra ~e l
                                                  3.395. 10 5                                17,229.098           2-'1, 181

                               2 ~ 7 •.
   "        F,...,ighl
                                      H3              .n .1I41

                                                      ., n,
                                                                         2,4..1 9,717           273,236          (06, 872        3.261.1 0\1


   "                                                                                            .126 .9 36                         271.656

   II       Rrn'                                  2.23Q.13~                                 1 1.3 17,250                        13.547 3 85

                                                                            3(1ffl,1
   "        Prinlmr.

            Sttvices
                                   J ,489

                                 81,4U8
                                                         7.6 13

                                                                         4,437,.;76
                                                                                                 38,636                              7'1,831


   "        S upplies
                                                   1,240,663

                                                     117,220
                                                                                              6.326,4 16

                                                                                                5')4, 853
                                                                                                               3,128,685        IS"l'W ,643

                                                                                                                                   71 2,0 73
   "
3 1 &42     Equ;lllll<=nl                              11 .1 61                 ' S<)            56.642                              67.933

T"bJ                        SLS U .145          ~1 2.3.S4 .988        ')44.297 j)6.I       $62 ,231 .07 5    SJ , 732.%1      SUI.16 7.0B




                                                                       36
	
                                                                                                                              Schedule 7
                                              DE.PARTl\1ENT Qt' JUSTICE
                          ENVIRONMENT AND NATURAL RESOURCES DIVISION



        ~
51' ProgJ!1l\ E~p
                         H(lup              (!lr«:1 &dlJQr
                                                               ,
                                                               O lh~[   lli[!CI ~o jU:
                                                                               "9,m
                                                                                             J ~dlr~~1
                                                                                                            ,   Tohl
                                                                                                                    49,1j8
                                                                                                                                Qill
                                                                                                                                        ,
Appellate
Law Jud Policy                   '"
                                 : 12
                                 2
                                        I             \0,714
                                                      16,390
                                                                                         S         lO,980
                                                                                                   32,094
                                                                                                                    31,094
                                                                                                                    48,48 4             ,
Criln inal                       m                    26,m                     '1.29\              51,376           108,9Q4              8
Defense                      1,624                   93,097                                       182,297          :275,394
Enforcement                110,S1i7               7,IS8,770                2,m,m               14,017,868       2D97,87J               "
                                                                                                                                       7H3
                                                                                                                   loo,m
Nalu!ld Resources
1; ,",1 A\Cj,                    '"
                                8l
                                        ,
                                                     34,0<-7
                                                      5.859
                                                                                                   66,708
                                                                                                   11,473
                                                                                                            ,       17.332
                                                                                                                                         4
                                                                                                                                        19
                 Totnl     I34Jll8                7.345.1J4    I           2,5112,211J   S     14,382.796       24.2JII,214
                                                                                                                                       '"




                                                                        37
	
                                                                      APPENDIX V


             SCHEDULE OF DOLLAR-RELATED FINDING

QUESTIONED COSTS:                                       AMOUNT                PAGE



Fees – Expert Witness                                     $27,966               14

TOTAL QUESTIONED COSTS                                   $27,966




______________________
        Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                           38
                                                                                     APPENDIX VI

  ENVIRONMENTAL AND NATURAL RESOURCE DIVISION’S
          RESPONSE TO THE DRAFT REPORT




                                                   September 12, 2011
Raymond J. Beaudet
Assistant Inspector General for Audit
Office of the Inspector General
1425 New York Avenue, N.W.
Washington, D.C. 20530
        Re: Audit of Superfund Activities in ENRD for Fiscal Years 2009 and 2010
Dear Mr. Beaudet:
I am writing to thank you for the professional and careful audit work performed by staff from
the Office of the Inspector General ("OIG") during the recent audit of Superfund activities in
the Environment and Natural Resources Division ("ENRD"), and to address the draft audit
report's recommendations. For over 20 years, ENRD has relied on your office to provide
sound advice to help ensure that our accounting systems and operations meet rigorous
standards for quality. Through the constructive process of regular audits, ENRD has
strengthened its accounting, which has helped the government recover hundreds of millions
of dollars through cost recovery litigation over the years. These audits are instrumental in
maintaining the integrity, reliability and accountability of the Division's Superfund program.
We greatly appreciate the role that the OIG plays in this process. We also appreciate the
opportunity to review this subject draft report and to respond to the recommendations.
The objective of the fiscal years 2009 and 2010 audit was to determine if the cost allocation
process used by ENRD and its contractor provided an equitable distribution of total labor
costs, other direct costs, and indirect costs to Superfund cases during the subject fiscal years.
We are pleased with OIG's conclusion that "ENRD provided an equitable distribution of
total labor costs, other direct costs, and indirect costs to Superfund cases from FY s 2009 and
2010." We also are pleased to learn that your review did not identify any instances of non-
compliance with the Comprehensive Environmental Response, Compensation and Liability
Act of 1980 (known as "CERCLA" or the "Superfund law"), under which this audit was
conducted.
Overall, we agree with the findings and conclusions described in the draft audit report.
Listed below is a summary of your audit recommendations, accompanied by ENRD's
responses to the recommendations.
RECOMMENDATION # 1: Develop processes to maintain documentation in order to
provide complete support for the Superfund allocation processes and aid in the reconciliation
of ENRD and contractor data.


                                                     39
       RESPONSE: We concur with this recommendation. In the attached memo dated
       September 8, 2011, ENRD's Executive Officer notified the Office of the Comptroller
       ("OC") and the Office of Information Management ("OIM") of a new document and
       data retention requirement. ENRD has created a new electronic, network-accessible
       repository which will retain any and all end-of-year Superfund time, cost and case
       reports (i.e., CMS, FMIS and NFC data) as well as internal reconciliations and
       relevant correspondence. Beginning this fiscal year (FY 2011), staff from the OC and
       OIM are required to retain end-of-year reports in this data repository. This new
       process will enhance the integrity and security of our data at the same time that it will
       allow facilitated access and streamlined reconcilability of our annual Superfund time,
       cost and case information.

RECOMMENDATION #2: Remedy the $27,966.00 of Fees - Expert Witness charges to be
paid by the U.S. Attorney's Office.

       RESPONSE: We concur with this recommendation. The OIG identified one
       Superfund payment of $27,966.00 made by ENRD on an expert witness invoice that
       should have been paid by the U.S. Attorney's Office (S.D.NY). The invoice was
       erroneously posted to the incorrect case/DJ number. To remedy this discrepancy,
       EOUSA has agreed to reimburse ENRD for the invoice amount of $27,966.00.
       ENRD is currently working with JMD to process the reimbursement, which is a
       complex procedure in the Department's financial management system, FMIS, as the
       transaction crosses multiple "tablesegs." Once this process is completed, staff from
       ENRD's Executive Office will provide you with the accounting report, verifying that
       the payment has been credited to ENRD's Superfund account.

ENRD is committed to maintaining a reliable and efficient system for allocating Superfund
costs. This audit, as well as ENRD's responses to the OIG's findings and recommendations
as outlined above, significantly benefits the government's efforts to recover federal funds
spent to clean up the environment and protect human health. In this era of tight budgets and
constrained staffing, we very much appreciate the Inspector General's willingness to conduct
audits of the Superfund program. Should you or your staff require further information,
please feel free to contact me, ENRD's Executive Officer, Andrew Collier, on 616-3359 or
ENRD's Assistant Director of the Comptroller's Office, Terri Cahill, on 616-3142.



                                             Sincerely,




                                             Ignacia S. Moreno
                                             Assistant Attorney General
                                             Environment and Natural Resources Division
Enclosure



                                                40
                                                           APPENDIX VII

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The Office of the Inspector General (OIG) provided a draft of this audit
report to the Environment and Natural Resources Division (ENRD). The
ENRD response is incorporated in Appendix VI of this final report. The
following provides the OIG analysis of the response and summary of actions
necessary to close the report.

Recommendation Number:

   1. Closed. We recommended that ENRD develop processes to maintain
      documentation in order to provide complete support for the Superfund
      allocation processes and aid in the reconciliation of ENRD and
      contractor data. The ENRD concurred with the recommendation and
      provided a September 8, 2011 memorandum specifying the new
      procedures for maintaining end-of-year Superfund reports and
      information.

      We reviewed the new procedure for retaining Superfund information
      and determined it adequately addresses our recommendation.
      Therefore, this recommendation is closed.

   2. Resolved. The ENRD concurred with our recommendation to remedy
      the $27,966 of Fees – Expert Witness charges. The ENRD stated in its
      response that ENRD is currently working to remedy this invoice and
      will provide the OIG with the appropriate accounting report verifying
      that the payment has been credited to the ENRD’s Superfund account.

      This recommendation can be closed when we receive documentation
      that the ENRD has remedied the $27,966 of Fees - Expert Witness
      charges.




                                     41
